TN

OCKLE

2311 Douglas Street CA . E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B gods contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-1706

LEEVAN ROUNDTREE,
Petitioner,
v.
STATE OF WISCONSIN,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
FIREARMS POLICY COALITION AND FIREARMS POLICY FOUNDATION IN SUPPORT
OF PETITIONER in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 4969 words, excluding the parts that are exempted by

Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 9th day of July, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL MOTAAY-State of Nebraska &v Chi,
; EE J, QOS: a ( Mis pmb. -

Welles ty Comm. Exp. September 8, 2023
Notary Public / Affiant

  

 

41165
